                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 24, 2013

Charles G. Pardee, WT 7B-K

FINAL REPORT – EVALUATION 2012-14845 – REVIEW OF TVA’S NUCLEAR POWER
GROUP PREVENTIVE MAINTENANCE



Attached is the subject final evaluation report for your review and action. Your informal
written comments, which addressed your management decision and final action for one of
the recommendations, have been incorporated in the report. Please advise us of your
planned actions in response to the remaining five recommendations within 60 days from
the date from this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact me at (865) 633-
7450 or Gregory R. Stinson, Director, Evaluations, (865) 633-7367. We appreciate the
courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JC:HAC
Attachment
cc (Attachment):
     Sam L. Harvey III, LP 4J-C
     Peyton T. Hairston, Jr., WT 7B-K
     Joseph J. Hoagland, WT 7C-K
     William D. Johnson, WT 7B-K
     Dwain K. Lanier, MR 3K-C
     Justin C. Maierhofer, WT 7B-K
     Richard W. Moore, ET 4C-K
     Andrea L. Williams, WT 9B-K
     OIG File No. 2012-14845

      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
              is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                         Evaluation Report
                                                               To the Executive Vice President
                                                               and Chief Operating Officer,
                                                               Operations




REVIEW OF TVA’S
NUCLEAR POWER
GROUP PREVENTITIVE
MAINTENANCE




Audit Team                                                                                            Evaluation 2012-14845
Janell B. Cunio                                                                                         September 24, 2013
Alina A. Karpich
Deana D. Scoggins
             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Evaluation Report




ABBREVIATIONS
BFN                        Browns Ferry Nuclear Plant
CY                         Calendar Year
EFOR                       Equipment Forced Outage Rate
EMPAC                      Enterprise Maintenance Planning and Control
ERI                        Equipment Reliability Index
FY                         Fiscal Year
INPO                       Institute of Nuclear Power Operations
NPG                        Nuclear Power Group
OIG                        Office of the Inspector General
PER                        Problem Evaluation Report
PM                         Preventive Maintenance
PMO                        Preventive Maintenance Optimization
SQN                        Sequoyah Nuclear Plant
TVA                        Tennessee Valley Authority
WBN                        Watts Bar Nuclear Plant




Evaluation 2012-14845

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 1

FINDINGS AND RECOMMENDATIONS ................................................... 2
    PM METRICS REPORTED MAY NOT BE ACCURATE ................................. 2

    DEVIATIONS FROM PM SCHEDULES ARE NEGATIVELY
    AFFECTING HEALTH .................................................................................... 4

    PMO DELAYS AND ESCALATION ................................................................. 7

RECOMMENDATIONS ................................................................................ 10




Evaluation 2012-14845

                                    TVA RESTRICTED INFORMATION
           Evaluation 2012-14845 – Review of TVA’s Nuclear
                Power Group Preventive Maintenance
                       EXECUTIVE SUMMARY

Why the OIG Did This Evaluation

  Preventive Maintenance (PM) is predictive, repetitive, and planned
  maintenance actions taken to maintain a piece of equipment and extend
  its life. PM is important to the reliable operation of assets. As a result of
  recent issues with nuclear performance, we conducted a review of Nuclear
  Power Group’s (NPG) PM program. The objective of our review was to
  determine if nuclear plant PM has been performed in accordance with
  established schedules and, if not, what effect the deviations are having.

What the OIG Found

  We found that reported PM metrics may not be accurate. We were unable
  to determine the actual number of Late PMs and PM Deferrals for
  Tennessee Valley Authority’s (TVA) three nuclear plants. During our
  review, we identified several concerns that raised questions about the
  validity of the reported PM metrics. For calendar year 2012, we were
  provided two sets of PM metrics for each site. There were differences in
  the data sets, and some of the differences were significant. TVA
  personnel were unable to reconcile the two sets of metric numbers. This
  made it impossible to determine the actual PM performance and what
  should have been reported.

  Additionally, the three plants were not consistently using the “Counts as
  Deferral” flag in Maximo, thus preventing certain deferrals from being
  identified and considered for the deferral count. Also, we found there was
  inconsistency in how the Late PM metric was reported. These issues will
  impact the value of the NPG Equipment Reliability Index that is part of
  NPG’s Winning Performance Scorecard for fiscal year 2013.

  We also found the deviations from PM schedules are negatively affecting
  system and component health. Sixteen of 34 system health reports and
  four of eight component health reports we reviewed listed PM as an issue.
  While PM Program Health has historically been rated poorly, there has
  been improvement recently.

  TVA started a Preventive Maintenance Optimization (PMO) program to
  bring its PM program in line with industry standards. Due to slow progress
  at all three plants, escalations were filed to raise the concern to a higher
  level. NPG-SPP-01.4, Governance, Oversight, Execution, and Support
  Program, provides an escalation process to address performance
  weaknesses where sites are not implementing timely actions to improve
  performance.

                                                                          Page i

                       TVA RESTRICTED INFORMATION
           Evaluation 2012-14845 – Review of TVA’s Nuclear
                Power Group Preventive Maintenance
                       EXECUTIVE SUMMARY

What the OIG Recommends

  We recommend the Executive Vice President and Chief Operating Officer,
  Operations, take steps to (1) define methods for consistent and accurate
  reporting of PM metrics across the nuclear fleet, including a step for
  verification and retention of documentation for items manually excluded;
  (2) address issue with the “Counts as Deferral” flag used in PM tracking;
  (3) perform an analysis to determine what impact inaccurate PM data
  could have on the Equipment Reliability Index calculation for fiscal year
  2013 Winning Performance; (4) reduce deviations from PM schedules;
  (5) take necessary actions to prevent reoccurring PMO implementation
  problems resulting from lack of site support; and (6) expedite PMO efforts.

TVA Management’s Comments

  TVA management agreed with the findings and recommendations in this
  report.

Auditor’s Response

  The OIG concurs with TVA management’s comments.




                                                                        Page ii

                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Evaluation Report


BACKGROUND
Tennessee Valley Authority’s (TVA) nuclear plants contribute approximately
6,600 megawatts of electricity to the power grid, which is about 30 percent of
TVA’s power supply, making the Nuclear Power Group (NPG) an integral part of
the seven-state power system. TVA’s three nuclear power plants–Browns Ferry
Nuclear Plant (BFN), Sequoyah Nuclear Plant (SQN), and Watts Bar Nuclear
Plant (WBN)–make enough electricity to power more than three million homes in
the Tennessee Valley. According to TVA, Nuclear’s challenge is to continue its
mission to ensure safe plant operations and achieve its vision of being the best
multi-site nuclear power operator in the world.

Preventive Maintenance (PM) is predictive, repetitive, and planned maintenance
actions taken to maintain a piece of equipment and extend its life. NPG-SPP-
06.2, Preventive Maintenance, describes the process and related requirements
for controlling PM activities at the sites. This procedure applies to all groups
involved in establishing, executing, revising, and monitoring the effectiveness of
nuclear plant PM programs. Also, this procedure is a key part of the
implementation of the NPG’s Equipment Reliability program and endorses the
key attributes of PM in the Institute of Nuclear Power Operations’ (INPO)
AP-913, Equipment Reliability Process Description. The purpose of TVA’s PM
program is to maintain a reliability-centered balance of predictive and other
preplanned maintenance activities which reduces the need for corrective
maintenance efforts.

OBJECTIVE, SCOPE, AND METHODOLOGY
PM is important to the reliable operation of assets. As a result of recent issues
with nuclear performance, we conducted a review of NPG’s PM program. The
objective of our review was to determine if nuclear plant PM has been performed
in accordance with established schedules and, if not, what effect the deviations
are having. The scope of our review included calendar year (CY) 2010-2012.

To achieve our objective, we reviewed:

   Policies and procedures and interviewed key personnel to determine PM
    requirements.
   INPO AP-913, Equipment Reliability Process Description, to determine the
    industry standard for PM.
   PM metrics from CY2010-2012 to identify historical status of NPG PM.
   Supporting documentation for the PM metrics for CY2012.
   PM Program Health Reports for CY2011-2012 to determine program health.
   A random sample of Nuclear system and component health reports from
    CY2011-2012 to determine if PM effects system health.
Evaluation 2012-14845                                                          Page 1

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Evaluation Report


This review was performed in accordance with the Council of the Inspectors
General for Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

FINDINGS AND RECOMMENDATIONS
We found that the reported PM metrics1 may not be accurate. During our review,
we identified several concerns that raised questions about the validity of the
reported PM metrics. For CY2012, we were provided two sets of PM metrics for
each site. There were differences in the data sets and some of the differences
were significant. TVA personnel were unable to reconcile the two sets of metric
numbers. This made it impossible to determine the actual PM performance and
what should have been reported. Additionally, the three plants were not
consistently using the “Counts as Deferral” flag in Maximo,2 thus preventing
certain deferrals from being identified and considered for the deferral count.
Also, we found there was inconsistency in how the Late PM metric was reported.
These issues will impact the value of the NPG Equipment Reliability Index (ERI),
which is part of NPG’s Winning Performance Scorecard for fiscal year (FY) 2013.
We also found that the deviations from PM schedules are negatively affecting
system and component health. Sixteen of 34 system health reports and four of
eight component health reports we reviewed listed PM as an issue. While PM
Program Health has historically been rated poorly, there has been improvement
recently. TVA started a PM Optimization (PMO) program to bring its PM program
in line with industry standards. Due to slow progress at all three plants,
escalations3 were filed to raise the concern to a higher level.

PM METRICS REPORTED MAY NOT BE ACCURATE
We found that reported PM metrics may not be accurate. We were unable to
determine the actual number of Late PMs and PM Deferrals for TVA’s three
nuclear plants. During our review, we identified several concerns that raised
questions about the validity of the reported PM metrics. For CY2012, we were
provided two sets of PM metrics for each site. There were differences in the data
sets and some of the differences were significant. TVA personnel were unable to
reconcile the two sets of metric numbers. This made it impossible to determine
the actual PM performance and what should have been reported. Additionally,
the three plants were not consistently using the “Counts as Deferral” flag in

1
    PM metrics are used internally by management and reported to INPO. INPO was established to specify
    appropriate safety standards including those for management, quality assurance, and operating
    procedures and practices and conduct independent evaluations. INPO works to help the nuclear power
    industry achieve the highest levels of safety and reliability–excellence–through plant evaluations, training
    and accreditation, event analysis and information exchange, and assistance.
2
    Maximo is the TVA system of record for Asset and Location information.
3
    NPG-SPP-01.4, Governance, Oversight, Execution, and Support Program, provides an escalation
    process to address performance weaknesses where sites are not implementing timely actions to improve
    performance. The escalation process directs and documents the formal notification of corporate officers,
    vice presidents, and site leadership of issues identified during the corporate oversight function that are
    not being adequately addressed by the site’s line organization.
Evaluation 2012-14845                                                                                    Page 2

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Evaluation Report


Maximo, and we found inconsistency in how the Late PM metric was reported.
These issues will impact the value of the NPG ERI calculation, which is part of
NPG’s Winning Performance Scorecard for FY2013.

We reviewed PM metrics for CY2010-2012, including metrics for critical PMs
deferred,4 total PMs deferred,5 critical PMs in second half grace,6 total PMs in
second half grace,7 and Late PMs8 reported by each site. We also reviewed
additional documentation for those metrics for CY2012 provided by NPG
Corporate.

For CY2012, there were differences in the data sets and some of the differences
were significant. TVA personnel were unable to reconcile the two sets of metric
numbers. This made it impossible to determine the actual PM performance and
what should have been reported. According to TVA, the site PM metrics are
reported to INPO and used internally by management.

While they were unable to reconcile the numbers, plant and NPG Corporate
personnel provided some possible explanations for what may have caused the
differences. One explanation for the differences is the timing of when the reports
used for calculating the metric were pulled. According to TVA, a matter of a few
hours could make a difference. Another reason provided was that PMs are not
required for out-of-service equipment until the equipment is back in service.
Personnel from one plant mentioned they did not manually adjust the late date
for out-of-service items to when the item was estimated to be back in service but
marked off those items from the reported metrics at the end of the month.

At BFN, it was discovered the report query used was insufficient to identify all PM
Deferrals within a current month. That error resulted in BFN providing inaccurate
data to populate the indicators for critical PMs Deferred and total PMs Deferred.
According to NPG Corporate personnel, this issue potentially affected the PM
deferral metrics by not counting some PM Deferrals that should have been
counted. This issue was not limited to BFN, as some instances were also
identified at SQN and WBN. A Problem Evaluation Report (PER) was created
and a Service Request was initiated to address this issue, which was marked
complete as of June 27, 2013, indicating the issue was resolved.



4
    Critical PMs are those that have been coded Critical or High Critical as per INPO AP-913, Equipment
    Reliability Process Description.
5
    Total PMs are indicative of the organizations ability to handle existing PM work load.
6
    Critical PMs in second half grace reflect the ability of the organization to maintain their most critical PMs
    on or near their due dates. The grace period is defined as a time after the scheduled due date in which
    the activity may be completed without being considered late and is normally 25 percent beyond the due
    date. Other percentages may be used for the grace period at the PM Coordinator’s discretion.
7
    Total PMs in second half grace reflect the ability of the organization to handle the overall workload with
    given resources. This is more of a leading indicator compared to deferrals or Late PMs.
8
    Late PMs are the number of PM tasks that exceeded their original late dates without an approved
    extension or deferral.
Evaluation 2012-14845                                                                                      Page 3

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                           Evaluation Report


Another issue with the PM reporting was also identified. All three plants were not
consistently using the “Counts as Deferral” flag in Maximo, which prevented
certain deferrals from being identified and considered for the deferral count. This
issue applies to both critical and noncritical PM Deferrals. All deferrals should
have been evaluated and marked either “Yes” or “No.” Since all deferrals were
not dispositioned, there is the potential that deferrals might not have been
counted. BFN had a significant amount of deferrals not flagged, while WBN and
SQN had fewer instances.

Also, we found there was inconsistency in how the Late PM metric was reported.
In discussions with TVA personnel, it was determined that in some months, the
Late PM metric was divided by the number of units,9 while in other months they
were not divided by unit. Reporting the metric in two different manners reduces
the ability to historically trend the metric. TVA issued a Service Request for a
PER on July 10, 2013, to address the confusion on reporting Late PMs,
immediately after discussions about the issue.

In FY2013, one of Corporate NPG’s Winning Performance Scorecard measures
is NPG ERI. The NPG ERI has a 15 percent weight on Corporate NPG’s
Performance Scorecard in the Reliability category. Deferral of critical PMs and
timely completion of critical PMs are two factors in the ERI, which together
account for 10 percent of the total score. The issues identified will impact the
value of the NPG ERI. While our scope only covered 3 months of FY2013 data,
some of the problems identified have not been resolved and could impact
additional 2013 data.

DEVIATIONS FROM PM SCHEDULES ARE NEGATIVELY
AFFECTING HEALTH
We found that deviations from PM schedules are negatively affecting system and
component health. PM Program Health10 has historically had poor ratings11 but
is improving.




9
     The metrics are to be reported out on a per unit basis. The number reported should equal the total
     number of Late, Deferred, or PMs in grace divided by the number of operating units for the plants; with
     3 for BFN, 2 for SQN, and 1.4 for WBN.
10
     System, program, and component health monitoring provides a method to improve and maintain
     equipment performance by identifying shortfalls in equipment or programs, identifying issues from
     internal or external operating experience, identifying issues that will affect future performance of
     equipment, and identifying opportunities offered by emerging technologies, benchmarking, or innovations
     that improve equipment performance.
11
     System, program, and component health are assigned a color rating based on a numerical system. A
     red rating is defined as intolerable and requires excessive monitoring/resources to maintain. A yellow
     rating is defined as not acceptable and needs additional attention. A white rating is defined as needs
     improvement and current performance/activities are appropriate.
Evaluation 2012-14845                                                                                Page 4

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                      Evaluation Report


As part of another review,12 a random sample of 50 system, component, and
program health reports with statuses of red or yellow (indicating poor health) was
selected for testing. A review of those 50 reports found that lack of PM activities
contributed to declining health for multiple systems and components. Of the
50 reports in the sample, 16 of the 34 system health reports, 4 of the 8 component
health reports, and none of the 8 program health reports listed PM as an issue.
The 16 system health reports were rated red or yellow for the indicator titled
Critical Component Deferred and Late PMs. The following detailed comments
were provided in some of the reports reviewed:

     A system health report stated the system was declining partly due to Critical
      Component Deferred PMs.
     A system health report stated one of the major issues affecting health was
      four Critical Component Deferred PMs.
     Two system health reports stated the system was red due to maintenance
      activities not being performed; and one of those stated that aging equipment
      not being rebuilt along with Deferred PMs was placing the system at risk.
     A system health report stated Critical Component Deferred/
      Late PMs continued to negatively impact system health.
     A system health report stated one of the issues that was most challenging to
      the system’s overall health was Critical Component Deferred PMs.
     A component health report rated red stated one of the reasons for the
      downgrade in color rating was excessive Deferred PMs.

TVA began developing PM program health reports for Nuclear in 2011. We
reviewed these reports and found the health was poor but improved from 2011 to
2012. All three plants were rated as red in the first half of 2011. By the second
half 2012, BFN and WBN raised their rating to yellow, while SQN raised its rating
to white. According to NPG corporate management, more site focus is needed to
ensure thoroughness and accuracy in the PM program health reports. Table 1
below details the Program Health ratings for the three plants for 2011 and 2012.

                  Table 1: PM Program Health Ratings CY2011-2012
                                     PM Program Health Ratings
                                     BFN                    SQN                        WBN
       Time Frame
                              Color       Rating     Color      Rating            Color    Rating
 First Half 2011               Red         63.25      Red       59.25              Red     66.25
 Second Half 2011              Red         37.75      Red       61.75             Yellow    79.5
 First Half 2012              Yellow        80       Yellow      77               Yellow     79
 Second Half 2012             Yellow        82       White       83               Yellow     80

Source: Table developed from TVA data on nuclear plant PM program health.


12
     Evaluation 2012-14842 – Actions to Address Nuclear Plant Systems, Components, and Programs.
Evaluation 2012-14845                                                                          Page 5

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Evaluation Report


The initial PM program health report, prepared for the first half of CY2011, for all
three plants stated the PM program processes had not been effective in
optimizing PM program execution. This had resulted in maintenance resource
requirements exceeding resource availability and had adversely impacted the
ability to address corrective maintenance issues and implement plant
improvements.

The next PM program health reports, completed for the second half of CY2011,
issued for all three plants stated:

     All three sites questioned the current PM organization structure, fractured
      nature of PM ownership, loss of expertise to deal with technical justifications
      of deferrals, and resources applied to the maintaining of the PM program.
     Established roles were not consistently performed the same across the fleet.
     Evidence of a number of systems being chronically red or yellow in system
      health color for several years and the excessively high number of PM backlog
      served as touch points to illustrate tolerance of precursors to equipment
      failures and degraded conditions.
     The PM program had not been implemented effectively as evidenced by a
      high number of PM Deferrals, Late PMs, and equipment failures due to lack of
      PMs.
     The fractured nature of PM ownership magnified departmental concept
      differences; these conceptual differences were not always aligned and tend to
      work against a cohesive program.

In 2012, the PM program health reports started to show some improvements.
According to TVA, actions taken as part of the PMO helped improve the PM
program health rating. The reports for all three plants stated:

     There are many processes in place to help identify and mitigate the PM long-
      standing weaknesses; PMO is being used to upgrade BFN, SQN, and WBN
      PMs to the Electric Power Research Institute templates and ensure the right
      PM is performed on the right components.
     The PM program procedure was revised to incorporate over 300 comments to
      strengthen fleet standardization.
     The backlog of PM change requests continued to challenge the plants and
      changes due to PMO, and additional PMs from the corrective actions process
      continued to place a high demand on the PM program.
     The number of Deep in Grace13 PMs and critical deferrals remained a
      concern, but the improving trend appeared consistent and sustainable.



13
     Deep in Grace is the second half of the grace period.
Evaluation 2012-14845                                                              Page 6

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Evaluation Report


The initial PM program health report, completed for the first half of CY2011 for
WBN, stated that PM activities were being rescheduled at a high rate and could
ultimately challenge the sites’ efforts to maintain a high standard of equipment
reliability. A later PM program health report for WBN, completed for the second
half of 2011, stated that there was continued resistance to the current PM
organization structure, as work management thought PMs should be in
Maintenance, and Maintenance thought PMs should be in Engineering. The
report also stated that central focus on PMs was lacking due to a fractured
structure for implementation and maintenance of the PM program.

A 2011 PM program health report for BFN stated that PM backlog continues to
be a problem for all three sites. The same report stated that system engineers
did not believe they were in the loop, and the plant needed to figure out how to
make this a team effort. A 2012 PM program health report for BFN stated that
PM backlog continued to be a concern, but a sustained work-off curve is being
maintained by all three sites. The last PM program health report for BFN in
2012 stated that Critical PMs Deep in Grace had been a chronic problem and
outside of industry norms, which was possibly contributing to reduced equipment
reliability. However, the same report stated that the site has made good
progress on Critical Component Deferred PMs. The last PM program health
report for BFN also stated that significant improvement has been achieved in
Late PMs, with none since July 2011.

Table 2 below shows TVA’s Equipment Forced Outage Rate (EFOR) for FY2010-
2012.

                        Table 2: TVA Nuclear EFOR FY2010-2012
                                      TVA Nuclear EFOR
             FY2010                        FY2011                   FY2012
              4.9%                          2.7%                     1.7%

The EFOR reflects the percentage of hours within the period that the asset was
not available to operate due to an unplanned (forced outage or derating) event.
TVA’s PM Program Health improved from CY2011 to CY2012 and also TVA
Nuclear’s EFOR improved, which can be seen in the table above.

PMO DELAYS AND ESCALATION
In early 2009, TVA began to implement a PMO program. Due to slow progress
and limited buy in at the sites, multiple escalations have been filed to raise the
concern to higher levels within the organization. Each plant received at least one
escalation related to delays in the PMO progress. NPG-SPP-01.4, Governance,
Oversight, Execution, and Support Program, provides an escalation process to
address performance weaknesses where sites are not implementing timely
actions to improve performance. The escalation process directs and documents
the formal notification of corporate officers, vice presidents, and site leadership of

Evaluation 2012-14845                                                            Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Evaluation Report


issues identified during the corporate oversight function that are not being
adequately addressed by the site’s line organization.

In 2000, TVA started a PM program, preventive maintenance management
process (PMM 2000), where they scoped all PM tasks in a months’ time at each
site. The program was not successful as it saw failures going forward. In
2004, the industry released INPO AP-913 Equipment Reliability Process
Description for equipment reliability guidelines, which includes activities normally
associated with preventive maintenance. The intent of INPO AP-913 is to
identify, organize, and integrate equipment reliability activities into a single
efficient and effective process. In 2004, TVA did not adopt these standards.

In early FY2009, TVA brought in a contractor to start a PMO program at BFN to
develop a PM program with the industry standards and create industry templates
that would be used to convert to Enterprise Maintenance Planning and Control
(EMPAC).14 BFN delayed entering the industry templates, and they were not
entered into EMPAC before TVA switched over to Maximo, so the templates
could not be installed. Also, plant personnel had instructed the contractors to
make exceptions to the templates when they were created. An example of an
exception would be changing the PM template from a 7-year replacement to a
5-year inspection. According to NPG Corporate management, contractors were
being pulled off the PMO to do other non-PMO work. At this point, another
contract was issued to create new templates to work with Maximo. BFN delayed
uploading the templates again, so the Corporate Functional Area Manager wrote
an escalation. TVA made the PMO a fleet project and added WBN and SQN to
the PMO. Corporate had similar challenges with the other sites and had to go to
escalations on them as well. Details of the challenges and escalations can be
seen in Table 3 below and continuing on the following page.

                          Table 3: TVA Nuclear PMO Escalations
                                           PMO Escalations
              Date of         Level of                                                  Escalation
     Plant                                                Details
             Escalation      Escalation                                                 Response
     BFN     September            1            BFN PMO was completed in             PMO Recovery
             2012                               the 2009 time frame; however,        Plan on December
                                                a significant number of              2012
                                                Maintenance Strategies for
                                                electrical components had not
                                                                                15
                                                been approved in IQReview,
                                                resulting in potential impact to
                                                the reliability of the affected
                                                equipment.
                                               Some PMs submitted in
                                                support of Maintenance
                                                Strategies have been rejected

14
     EMPAC is a Work Management System.
15
     IQReview provides standardization and automation of the Maintenance Strategy implementation process.
Evaluation 2012-14845                                                                             Page 8

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Evaluation Report


                                           PMO Escalations
             Date of          Level of                                                 Escalation
  Plant                                                  Details
            Escalation       Escalation                                                Response
                                               by site organizations.
                                              Failure to complete
                                               implementation of PMO for
                                               electrical components
                                               represented a substantial
                                               threat to generation.
  BFN        June 2013            2           The PMO recovery plan                BFN responded to
                                               schedule was not met, and the        the escalation in
                                               July 2013 finish date was no         August 2013. The
                                               longer possible.                     response detailed
                                                                                    the actions to be
                                                                                    taken to address
                                                                                    the escalated
                                                                                    issue.
  WBN        April 2012           1           The PMO project at WBN/SQN           PMO Recovery
  and                                          had been repeatedly delayed          Plan on May 2012
  SQN                                          from the original schedule due
                                               to insufficient allocation of site
                                               resources to complete the
                                               project.
                                              The delay had also resulted in
                                               significant additional cost to
                                               TVA for vendor support.
                                              The original schedule for the
                                               PMO project that was agreed
                                               to by WBN/SQN and
                                               developed with input from the
                                               site was to be completed by
                                               the end of FY2011.
                                              The schedule was revised
                                               three times.
  SQN      January                2           The recovery plan developed          PMO Recovery
           2013                                in response to a Level 1             Plan on January
                                               escalation in April 2012 was         2013
                                               not completed by its target
                                               date, and an additional              (The new recovery
                                               extension was requested,             plan had the latest
                                               bumping the date from                action due date
                                               September 2012 to January            set for February
                                               2013.                                2013. SQN
                                              The extension required an            completed their
                                               additional short-term extension      plans for that
                                               of contract resources for            phase but not on
                                               support and additional               time.)
                                               expenses.
                                              The January 2013 revised
                                               date was not met resulting in
                                               the fifth schedule change.



Evaluation 2012-14845                                                                             Page 9

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                     Evaluation Report


According to NPG corporate management, PERs were created for each
escalation, which included a root cause analysis. The root cause analyses
showed that they have a lack of site support due to emergent issues.

RECOMMENDATIONS
We recommend the Executive Vice President and Chief Operating Officer,
Operations, take steps to:

   Define methods for consistent and accurate reporting of PM metrics across
    the nuclear fleet, including a step for verification and retention of
    documentation for items manually excluded.
   Address issue with the “Counts as Deferral” flag used in PM tracking.
   Perform an analysis to determine what impact inaccurate PM data could have
    on the ERI calculation for FY2013 Winning Performance.
   Reduce deviations from PM schedules.
   Take necessary actions to prevent reoccurring PMO implementation
    problems resulting from lack of site support.
   Expedite PMO efforts.

TVA Management’s Comments – The General Manager, Equipment Reliability
and Components, provided a written response to a draft of this report. TVA
management agreed with the findings and recommendations in this report.

TVA management has through their own reviews identified some similar issues
identified by the Office of the Inspector General. The number of late PMs and
PM Deferrals is one area where they identified a similar concern. TVA
completed an independent review of a 3-month period which determined the
confusion appears to mainly be focused on the BFN site where the “Counts as
Deferral” MAXIMO flag and the number of Late and Deferred PMs lacked
reporting consistency. Using the data from the independent review, in response
to the third recommendation, TVA management performed an analysis to
determine what impact inaccurate PM data could have on the ERI calculation for
FY2013 Winning Performance. TVA management’s analysis showed that
inaccurate PM data would not affect the Winning Performance payout, based on
the category thresholds. Prior to the final report being issued for NPG
performance of ERI for FY2013, an independent check will be performed by the
Corporate Functional Area Managers in their areas to ensure that all values
reported are verified for the Winning Performance report.

TVA management concurs with the finding that deviations from PM schedules are
negatively affecting system and component health and identified it through fleet
metric trend and two PERs. TVA is developing an action plan to redress this
performance issue. Additional training and necessary procedural clarifications for

Evaluation 2012-14845                                                        Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                     Evaluation Report


PM tracking are already under review to ensure consistency of the data reporting
for this program.

Delays in the results from the PMO implementation has been discussed with the
plant manager peer team and has been brought to the attention of the Senior
Vice President of Nuclear Operations. A discussion is being scheduled to review
all the data and issues associated with the PMO with the Senior Vice President
of Nuclear Operations including the escalations that have occurred at each site to
garner support for focused attention across the fleet for this critical issue.

In addition, management is determining the appropriate actions to address the
remaining five recommendations.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s comments.




Evaluation 2012-14845                                                        Page 11

                                  TVA RESTRICTED INFORMATION
